HHS/OIG, Audit - "Review of Quality Improvement Organization in Tennessee
for August 1, 2002, Through July 31, 2005," (A-04-06-00023)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Tennessee for August 1, 2002, Through
July 31, 2005," (A-04-06-00023)
July 7, 2008
Complete
Text of Report is available in PDF format (1.83 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the $13.81 million of costs reviewed from August 1,
2002, through July 31, 2005, $13.66 million
appeared reasonable for Federal reimbursement.  Of the remaining costs, QSource,
the Tennessee Quality Improvement Organization (QIO),
incurred $31,000 of costs that were unallowable and $124,000 of costs that were
potentially unallowable.  The Centers for Medicare & Medicaid Services
contracts with QIOs in each State to improve the quality of care.  We
conducted this review at the request of the Senate Finance Committee.
We recommended that QSource (1) refund $6,700 for unallowable physician
consultant fees, (2) reduce the indirect cost pool by $24,000 for the balance of
unallowable costs incurred, and (3) work with the CMS contracting officer to
determine what portion of the $124,000 incurred for conference-related costs
during our audit period should be excluded from the indirect cost pool for
purposes of determining final rates.
In its written comments on our draft report, QSource agreed in part and
disagreed in part with our findings and recommendations and submitted additional
documentation regarding conference costs.  The comments and additional
documentation did not change our findings or recommendations.